               OFFICE OF
               INSPECTOR
               GENERAL
               UNITED STATES POSTAL SERVICE




       Effects of Compliance Rules on
                   Mailers

                      Audit Report




                                              August 24, 2011

Report Number MS-AR-11-006
                                                                       August 24, 2011

                                            Effects of Compliance Rules on Mailers

                                                       Report Number MS-AR-11-006



IMPACT ON:
Business Mail Entry Requirements and        Domestic Products, further involve
Compliance Rules for Mailers and Mail       stakeholder groups in formal dialogue
Service Providers.                          during the strategic planning phase of
                                            new initiatives and enhance
WHY THE OIG DID THE AUDIT:                  transparency and accountability by
Our objective was to evaluate mailer        documenting Postal Service
concerns with U.S. Postal Service           collaborative efforts. In addition, we
compliance rules. Specifically, we          recommend the vice president, Mail
evaluated concerns with Postal Service      Entry and Payment Technology, train
compliance rules governing Intelligence     and monitor acceptance employees on
Mail™ barcodes (IMb), Move Update,          changes to program requirements and
and Plant-Verified Drop Shipments           related compliance rules.
(PVDS). This report responds to a
request from Senator Susan M. Collins.      WHAT MANAGEMENT SAID
                                            Management concurred with the
WHAT THE OIG FOUND:                         findings and recommendations and
The Postal Service has not always fully     stated that, where practicable, it will
considered how changes to mail              include mailers’ costs in its cost-benefit
compliance rules impact mailers.            analysis of new initiatives. Management
Specifically, the Postal Service did not    is also implementing a formal process
always adequately estimate the cost to      which contains stakeholder analysis and
mailers of complying with proposed          financial tracking. Management stated
rules, collaborating with the mailing       that the Postal Service will provide
industry, and training and monitoring       continued training to field acceptance
personnel to accept business mailings.      personnel.

The Postal Service is currently taking      AUDITORS’ COMMENTS:
steps to improving collaboration with       Management’s comments are
mailers when developing compliance          responsive to the report and corrective
rules.                                      actions should resolve the issues
                                            identified in the report.
WHAT THE OIG RECOMMENDED:
We recommended the vice president,          Link to review the entire report
Product Information, in coordination with
the vice president, Domestic Products,
consider mailing industry costs as part
of cost-benefit analyses. We also
recommended the vice president,
Consumer and Industry Affairs, in
coordination with the vice president,
August 24, 2011

MEMORANDUM FOR:            JAMES P. COCHRANE
                           VICE PRESIDENT, PRODUCT INFORMATION

                           SUSAN M. LACHANCE
                           VICE PRESIDENT, CONSUMER AND INDUSTRY
                           AFFAIRS

                           PRITHA MEHRA
                           VICE PRESIDENT, MAIL ENTRY AND PAYMENT
                           TECHNOLOGY

                           GARY C. REBLIN
                           VICE PRESIDENT, DOMESTIC PRODUCTS


                               E-Signed by Darrell E. Benjamin, Jr
                                 VERIFY authenticity with e-Sign

FROM:                      Darrell E. Benjamin, Jr.
                           Deputy Assistant Inspector General
                            for Revenue and Systems

SUBJECT:                   Audit Report – Effects of Compliance Rules on Mailers
                           (Report Number MS-AR-11-006)

This report presents the results of our audit of the Effects of Compliance Rules on
Mailers (Project Number 11RO002MS000).

We appreciate the cooperation and courtesies provided by your staff. If you have any
questions or need additional information, please contact Janet Sorensen, director, Sales
and Service, or me at 703-248-2100.

Attachments

cc: Ronald A. Stroman
    Paul Vogel
    Ellis Burgoyne
    Deborah Giannoni-Jackson
    Corporate Audit and Response Management
                                                TABLE OF CONTENTS


Introduction ................................................................................................................. 1

ConclusionCost of Mailer Compliance......................................................................... 2

 Intelligent Mail ........................................................................................................... 2

 Move Update ............................................................................................................. 3

 SuiteLink ...................................................................................................................... 4

Collaboration with Mailers ........................................................................................... 4

 Postal Service Efforts to Improve Customer Relations .............................................. 5

Customer Service and Training ................................................................................... 6

Other Matters of Interest – MERLIN ............................................................................ 7

Recommendations ...................................................................................................... 8

Management’s Comments .......................................................................................... 8

Evaluation of Management’s Comments ..................................................................... 9

Appendix A: Additional Information ........................................................................... 10

 Background ............................................................................................................. 10

 Objective, Scope, and Methodology ........................................................................ 12

 Prior Audit Coverage ............................................................................................... 14

Appendix B: Other Impacts ....................................................................................... 17

Appendix C: Management’s Comments .................................................................... 18
Effects of Compliance Rules on Mailers                                                   MS-AR-11-006



Introduction

This report presents the results of our audit of the effects of compliance rules on mailers
(Project Number 11RO002MS000). The report responds to a request from Senator
Susan M. Collins. Our objective was to evaluate mailer concerns with U.S. Postal
Service compliance rules. Specifically, our audit focused on the effects of recent and
planned changes to compliance rules related to Intelligent Mail™ barcode (IMb), Move
Update, and Plant-Verified Drop Shipments (PVDS). In addition, we reviewed how the
Postal Service uses the Mail Evaluation Readability Lookup INstrument (MERLIN) to
evaluate IMb readability and compliance with Move Update rules. This audit addresses
strategic risk. See Appendix A for additional information about this audit.

Conclusion

The Postal Service did not always fully consider how changes to mail compliance rules
impact mailers. Specifically, the Postal Service did not always adequately:

      Estimate the cost to mailers of complying with proposed rules.
      Collaborate with the mailing industry.
      Train and monitor personnel who accept business mailings.

However, the Postal Service has increased emphasis on improving communication and
cooperation with the mailing industry. Shortly after the new postmaster general (PMG)
was selected in December 2010, he identified four core business strategies and among
them was “improve the customer experience.” The PMG has stressed this strategy to
Postal Service personnel and reiterated it during the May 2011 National Postal Forum
when he stated that improving the customer experience was an incredibly important
strategy for the Postal Service. He stated that the Postal Service is considering ways to
improve its processes to better integrate with that of the largest customers. We further
noted that the Postal Service is taking steps to improve collaboration with mailers when
developing compliance rules such as:

      Implementing predictive mail preparation and rule changes and limiting software
       releases to two major and four minor1 releases each year.

      Indefinitely postponing the requirement to use IMb to qualify for automation
       discounts.

      Migrating from a focus of removing discounts to working with mailers to help them
       address their issues related to Full Service.

      Taking action to educate mailers and clerks on the requirements for PVDS including
       issuing advisories, conducting training and webinars for employees, and developing
       a checklist for mailers and Postal Service clerks.


1
    Two of the minor software releases will be in conjunction with the major releases.
                                                             1
Effects of Compliance Rules on Mailers                                           MS-AR-11-006



Although the Postal Service has taken several recent steps to be more responsive to
customer needs and improve the customer experience, it will need to continue in this
direction of collaboration and dialogue to maximize benefits and reduced costs for the
Postal Service and its customers.

Cost of Mailer Compliance

The Postal Service did not estimate the cost to mailers of complying with proposed rules
governing recent program changes. Program implementation of Intelligent Mail, Move
Update, and SuiteLink were of significant concerns to mailers, who expressed
dissatisfaction over mounting implementation and maintenance costs. As a result, the
Postal Service’s relationship with its customers has been negatively impacted and the
risk that mailers may seek alternatives for their mailing needs has increased. Excerpts
of comments mailers made to us include:

   “Costs to mail continue to rise causing our clients to look for alternatives.”

   “The clients I have spoken with do not see a benefit in making the switch to IMb and
    are afraid of additional expenses for their mailing. Many of our clients are reducing
    their mail volume and moving towards other advertising.”

   “. . . lack of USPS support and the ongoing mandated changes have caused many
    business mailers, including ourselves, to look at how to move to e-solutions faster.”

Intelligent Mail

The Postal Service did not prepare a cost-benefit analysis to determine whether the
benefits of IMb exceeded total mailing industry and Postal Service costs. IMb provides
an information-enriched mailstream that allows increased accountability and data-based
decision making but implementing IMb can be costly. In their comments on the Postal
Service’s fiscal year (FY) 2010 Annual Compliance Report, the National Postal Policy
Council suggested that the Postal Regulatory Commission (PRC) require the Postal
Service to conduct a cost-benefit analysis when contemplating changing mailing
regulations or entry requirements to identify and calculate uncompensated costs mailers
would incur as a result of the changes. The PRC stated in its FY 2010 Annual
Compliance Determination Report that a cost-benefit analysis designed to calculate
costs incurred by mailers would require accurate, detailed information on mailers’ costs.
Neither the Postal Service nor the PRC has access to such information or a ready
means to obtain it. The PRC also stated that mailers, rightfully, may be reluctant to
divulge such information.




                                              2
Effects of Compliance Rules on Mailers                                                                 MS-AR-11-006



During our audit we found that mailer costs vary widely among the various segments of
the mail industry; however, the Postal Service is not precluded from working with
industry experts to estimate overall mailer costs. Other federal agencies are required2 to
consider cost impacts and alternatives that maximize net benefits to society. Obtaining
mailer cost estimates would give the Postal Service a better understanding of the
impact of its proposed rules on its various customer segments.

The Postal Service is also not precluded from soliciting mailer input as part of its cost
estimate process. For example, mailers stated that investment in Full-Service Intelligent
Mail for larger mailers ranged from $400,000 to $3.25 million. In addition, mailers
estimated that recurring annual expenditures for Full-Service Intelligent Mail ranged
from $50,000 to $500,000. By estimating mailer costs, the Postal Service could attempt
to mitigate any negative effects on mail volume by modifying costly rules or taking other
action.

The Postal Service may find it difficult to staff or fund new cost-estimate efforts due to
its current financial condition3. Additionally, mailers may argue that Postal Service
estimates represent price increases that violate Postal Service pricing requirements. 4
Nonetheless, mailer cost estimates are important because mailers cited cost as the
main reason for not adopting Full-Service IMb. Excerpts of mailers’ comments included:

   “Clients won’t pay for the service.”

   “For the volume of mail we produce, the Full-Service discount doesn’t offset the
    costs of additional software, management of electronic documentation, and unique
    barcodes.”

    “Too costly and complicated. No return on investment. No value to the end
    customer.”

   “The discount allowed at this point does not justify the additional expense and
    software. In other words, at this point there is no benefit to spending thousands of
    dollars in additional equipment and thousands of dollars in additional man power for
    the very minor discount. Also, clients do not view the IMb as any major benefit to
    their mailing.”

Move Update

The Postal Service also did not estimate mailers’ costs or complete a cost-benefit
analysis for the proposed Move Update change related to Moved Left No Address/Box
Closed No Order (MLNA/BCNO) mail. Under a proposed rule published in the
September 2010 Federal Register, mailers must refrain from mailing to these
2
  Executive Order 13563, Improving Regulation and Regulatory Review, dated January 18, 2011.
3
  The Postal Service lost $8.5 billion during FY 2010 and $2.6 billion during the first two quarters of FY 2011. The
Postal Service is projecting cumulative losses of $238 billion through FY 2020.
4
  The Postal Accountability and Enhancement Act (PAEA) of 2006 establishes procedures for the Postal Service to
change product and service prices and limits the amount of such increases.


                                                          3
Effects of Compliance Rules on Mailers                                         MS-AR-11-006



undeliverable addresses when the effective date of the change of address (COA) is
older than 95 days. Some mailers claimed that the cost to implement this rule is
excessive and amounts to a rate increase.

The requirement is particularly burdensome for First-Class™ mailers because of the
business practices of mailing to an addressees’ last known address. Costs include
one-time charges for programming and data storage and recurring costs for handling
mail.

Mailers also questioned the overall benefit of this rule. Although we were unable to
substantiate the accuracy of this statement, one mailer organization estimated that for
every $1,000 in additional recurring costs to implement the rule, the Postal Service
gains $159 in additional revenue but would incur an additional $293 in handling costs.
Mailers also questioned the benefit of suppressing this mail; because they believe
Postal Service data are inaccurate, citing examples of inconsistencies between different
Postal Service address systems and examples of MLNA/BCNO mail subsequently
being successfully delivered.

SuiteLink

Some mailers were concerned about the cost and complexity of implementing SuiteLink
and questioned the benefit of this requirement. SuiteLink is intended to improve business
addressing information by assigning a suite number when available and allow the Postal
Service to achieve increased mail volume sorted in delivery point sequence. The Postal
Service did not estimate mailer costs to implement SuiteLink but our discussion with
mailers and mailer organizations indicated the costs will vary widely from practically zero
to hundreds of thousands of dollars for one-time and recurring costs. Postal Service
management estimated annual savings of $20 million resulting from improved
addressing on 500 million mailpieces.

Collaboration with Mailers

Although the Postal Service has recently taken steps to improve communication with
mailers, it did not effectively collaborate with mailers on certain previous and ongoing
significant program changes. Continued collaboration between the Postal Service and
the mailing industry could have mitigated problems encountered by many mailers.
Specifically, we noted that:




                                            4
Effects of Compliance Rules on Mailers                                                                     MS-AR-11-006




   Although the Postal Service worked with the mailing industry through the Mailers
    Technical Advisory Committee (MTAC) 5 to implement 6 Full-Service Intelligent Mail, it
    did not involve MTAC workgroups during the strategic planning phase of Full-Service
    Intelligent Mail.

   Although the Postal Service obtained comments when changes were published in
    the Federal Register, use of MTAC may have addressed mailer concerns early on
    and developed alternatives to the Move Update MLNA/BCNO rule.

   Although the Postal Service consulted with the industry regarding SuiteLink through
    Partners in Tomorrow, this group is made up primarily of software vendors with little
    direct participation by mailers. Assessing SuiteLink through MTAC would have better
    facilitated mailer collaboration with the Postal Service by examining mailers’
    concerns and exploring alternatives.

The MTAC members we talked with noted recent improvements in the Postal Service’s
efforts to work with the mailing industry. However, they expressed frustration with the
Postal Service’s lack of attention to MTAC recommendations. They believed that better
accountability and transparency of MTAC recommendations would improve
collaboration and result in more timely resolution of issues. Although the Postal Service
reports the status of MTAC workgroup recommendations through its recently developed
Resolution Issue Tracking System (RITS), we noted that RITS provides little detail on
the Postal Service’s progress on recommendations, including specific actions
completed, responsibilities assigned, and estimated milestone dates.

The Postal Service could also enhance its relationship with the mailing industry by
further engaging stakeholders such as MTAC to develop rules. By engaging
stakeholders early on, the Postal Service may avoid unanticipated mailer issues and
rule retractions that frustrate mailers and tarnish the Postal Service brand (goodwill).
Effective use of key stakeholders may also speed implementation of rules through the
Federal Register process as fewer mailer comments are received and the Postal
Service has a fuller understanding of the potential impact on mailers to better respond
to comments.

Postal Service Efforts to Improve Customer Relations

The Postal Service has recently taken steps to improve collaboration with mailers on
Intelligent Mail. During the February 2011 MTAC meeting, the Postal Service
announced its intention to implement predictive mail preparation and rule changes,
including limiting software releases to two major and four minor releases each year. The

5
  A major venue for Postal Service and mailing industry collaboration.
6
  MTAC work groups 117 and 122 are examples of how the Postal Service and the mailing industry worked together
to implement Intelligent Mail. The mailing industry is currently collaborating with the Postal Service on Intelligent Mail
through MTAC user group 1.




                                                             5
Effects of Compliance Rules on Mailers                                                               MS-AR-11-006



Postal Service also announced its intention to encourage adoption of IMb through its
value proposition for customers and service providers rather than requiring mailers to
adopt the IMb to qualify for automation discounts.

The Postal Service indefinitely postponed the mandatory use of IMb scheduled for
May 2011 and the removal of discounts scheduled for January 2011. Also during the
February MTAC meeting, the Postal Service announced that it planned to refund
Full-Service Intelligent mailers for address change service fees charged between
October 2010 and February 2011. The Postal Service took this action because of its
commitment to providing free address change service to these mailers. These actions
will allow the Postal Service to better address mailing industry concerns over Intelligent
Mail.

Additional mailers have adopted IMb since the Postal Service opted to encourage rather
than mandate IMb adoption. Between Quarters 2 and 3 of FY 2011, the percentage of
mailpieces using the legacy POSTNET barcode decreased from 38 to 27 percent.
Additionally, IMb mail increased from approximately 58 to 69 percent. Basic IMb mail
increased from approximately 21 to 29 percent and Full–Service Intelligent Mail from
approximately 37 to 40 percent 7 of total mail volume.

Customer Service and Training

The Postal Service did not always adequately train and monitor field personnel on
Intelligent Mail and PVDS program requirements. Postal Service acceptance employees
were not always familiar with Intelligent Mail compliance rules and did not always
understand the requirements enough to address customers’ questions or have the
authority to act. The Postal Service could encourage more mailers to adopt Full-Service
Intelligent Mail by having more knowledgeable acceptance employees. Mailers
complained that acceptance employees were not adequately trained on issues dealing
with Intelligent Mail. Excerpts of mailers’ comments included:

   “You have management pushing the IMb due to PAEA 8 with no real training or
    support for the people who have to get the work done. You need field people who
    know and understand the process well enough to help your customers get the job
    done instead of having to wait for answers. You need full customer service.”

   “Lack of Postal Service support (technical advice/direction to resolve problems, get
    answers).”

   “We cannot get straight answers as to why we should use it. Your people are not
    educated about IMb.”

    “The Postal Service s hould t rain t heir em ployees bet ter. I t get s an noying w hen I

7
  The Postal Service reported that as of the third quarter FY 2011, Basic IMb mail volume was approximately 9.7
billion mailpieces and Full Service IMb mail volume was approximately 13.1 billion mailpieces.
8
  Postal Accountability and Enhancement Act.


                                                         6
Effects of Compliance Rules on Mailers                                                                 MS-AR-11-006



     have to show the BMEU 9 the DMM10 reference that allows me to enter mail the way I
     claimed after they say I can't do it that way.”

    “Some of the information we keep hearing in regards to benefits of FS 11 Mailing by
     local USPS personnel is misleading because they don't understand the concept.”

    “To this point the USPS has used most of their encouragement as threats. They
     need to be customer focused. They need a complete culture shift - from the top
     down through all of the levels to deal with customers as customers. The USPS
     hasn't seemed to realize they have competition and it is "e".”

    “Not well thought out or supported by the USPS. Rules change daily. Feedback is
     non-existent.”

Mailers also expressed concerns about the lack of Postal Service training and mailer
support for PVDS. The Postal Service tightened up its drop shipment practices, putting
pressure on clerks and mailers to comply with requirements for complete and accurate
Postal Service (PS) Forms 8125, Plant-Verified Drop Shipment Verification and
Clearance. 12 The increased scrutiny of PS Forms 8125, exposing misunderstandings of
PVDS requirements by both Postal Service clerks and mailers and resulting, at times, in
improperly delayed or rejected mail. This increased mailer frustration with compliance
rules. As a result, the Postal Service took action to educate mailers and clerks on the
requirements including issuing advisories clarifying the purpose of PS Form 8125,
conducting training for more than 6,000 employees, developing a checklist for mailers
and Postal Service clerks, and conducting webinars for mailers. In addition, the Postal
Service is developing through MTAC an e-induction process that promises to streamline
the PVDS process. However, with staff reductions, facility closures, and potential
changes in PVDS procedures, it is important that the Postal Service properly train and
monitor employees to ensure PVDS controls are maintained.

Other Matters of Interest – MERLIN

More than one-third13 of the mailers we surveyed did not believe that MERLIN
accurately measures how well their mailings comply with Postal Service requirements.
However, Postal Service studies showed that most mailers were not significantly
impacted by MERLIN barcode readability failures. The readability threshold for both the
IMb and POSTNET barcode is 90 percent; therefore, a mailing can contain up to
10 percent unreadable barcodes and still pass MERLIN verification for barcode

9
  Business mail entry unit (BMEU).
10
   Domestic Mail Manual (DMM).
11
   Full Service.
12
   This form, which serves as the sole source of evidence of the custody of pieces entered as a mailing at the time of
PVDS induction, was identified by the Postal Service as a key control weakness in Sarbanes-Oxley (SOX)
compliance reviews. The SOX Act of 2002 aims to improve corporate governance and to enhance the accuracy of
financial reporting.
13
   We asked mailers whether they thought MERLIN verification standards accurately measured how well mailings
complied with Postal Service standards. We received 211 replies to this question. Of those, 88 (or 41.7 percent) said
no.


                                                          7
Effects of Compliance Rules on Mailers                                                           MS-AR-11-006



readability. Postal Service MERLIN IMb readability tests 14 showed that 96 percent of
IMb letter mailings and 94 percent of IMb flat mailings met the 90 percent threshold.

Mailers were also concerned that Postal Service performance-based evaluations using
MERLIN would result in improper assessments because of inconsistencies between
MERLIN’s Move Update data and the Move Update databases the Postal Service
requires mailers to use. However, the results of Postal Service Move Update
verifications indicated few mailers were impacted, as only approximately
2 percent of mailings tested failed Move Update. Furthermore, mailings that did fail did
so by a large margin, indicating that significant issues exist with the mailings. Therefore,
we do not believe the concerns mailers expressed regarding MERLIN are substantiated.

Recommendations

We recommend the vice president, Product Information, in coordination with the vice
president, Domestic Products:

1. Estimate and consider mailing industry costs as part of cost-benefit analyses, where
   practical, to determine whether the benefits of new initiatives and rule changes are
   justified in light of total industry costs.

We recommend the vice president, Consumer and Industry Affairs, in coordination with
the vice president, Domestic Products:

2. Further involve stakeholder groups in formal dialogue during the strategic planning
   phase of new initiatives.

3. Enhance transparency and accountability by documenting Postal Service
   collaborative efforts (discussions, action items, resolutions, and milestones).

We recommend the vice president, Mail Entry and Payment Technology:

4. Continue to train and monitor Postal Service acceptance employees on changes to
   program requirements and related compliance rules.

Management’s Comments

Management concurred with recommendation 1 and stated that it is participating in
Mailers Technical Advisory Committee Workgroup 8. The objective of the workgroup is
to create a standard process for releasing complete product information concurrent with
the public announcement of new and existing products. Management also stated that,
where practicable, it will incorporate qualitative estimates of compliance costs as well as
information about compliance costs provided by customers into their evaluation of the
benefits of new initiatives.


14
     The Postal Service conducted the readability tests from June 30 through November 2, 2009.


                                                          8
Effects of Compliance Rules on Mailers                                      MS-AR-11-006



Management indicated agreement with recommendation 2 and stated that, in addition to
the current industry stakeholder engagement channels, the Postal Service is developing
several councils to enhance the Postal Service industry outreach. Management also
stated that the PMG has been holding monthly meetings with stakeholders since
January 2011. In addition, the Postal Service will use a new project management
process that contains a stakeholder analysis process.

Management agreed with recommendation 3 and stated that the Postal Service is
implementing a formal process called Delivering Results, Innovation, Value and
Efficiency (DRIVE), which contains a thorough stakeholder analysis. DRIVE is also
comprised of detailed road maps, which will update core decision processes and
contain financial USPS tracking.

Management agreed with recommendation 4 and stated that the Postal Service will
provide continued training to field acceptance personnel. Management also stated that it
conducts bi-weekly field discussions and distributes weekly advisories to field units to
communicate process changes and updates to standards. In addition, field units have
access to multiple job aids from the Business Mail Acceptance webpage. See Appendix
C for management’s comments in their entirety.

Evaluation of Management’s Comments

The U.S. Postal Service Office of Inspector General (OIG) considers management’s
comments to be responsive to the recommendations and corrective actions should
resolve the issues identified in the report. The OIG considers all the recommendations
significant, and therefore requires OIG concurrence before closure. Consequently, the
OIG requests written confirmation when corrective actions are completed. These
recommendations should not be closed in the Postal Service’s follow-up tracking
system until the OIG provides written confirmation that the recommendations can be
closed.




                                           9
Effects of Compliance Rules on Mailers                                           MS-AR-11-006




                                 Appendix A: Additional Information

Background

To improve efficiency, reduce costs, and comply with SOX, the Postal Service imposed
additional demands on customers through increased compliance requirements for
programs such as Intelligent Mail, Move Update, and PVDS. Although these initiatives
allowed the Postal Service to cut costs and increase efficiencies, they also passed costs
on to customers. These additional costs and requirements may force mailers to resort to
other forms of communication. The resulting revenue loss would offset the cost savings
from these programs. We performed this audit to evaluate the effects of these initiatives
on mailers. We have included descriptions of these initiatives in the following
paragraphs.

Intelligent Mail

Intelligent Mail is a comprehensive term that describes the integration of electronic
mailing documentation that includes IMb on all mail and containers and scans to track
mail at all points in the delivery process. There are four IMbs: IMb for letters, cards, and
flats; Intelligent Mail tray barcode; Intelligent Mail container barcode; and the Intelligent
Mail package barcode.

There are two options for Intelligent Mail: Full Service and Basic. Under the
Full-Service option, mailers are required to apply unique IMb on their letter and flat
mailpieces, trays and sacks, and other containers. Under the Basic option, mailpieces
may contain a unique IMb, but uniqueness is not required. Full-Service mailers must
submit postage statements and mailing documentation electronically. With Intelligent
Mail, the Postal Service planned to transform the value of mail by helping customers
manage business process, track cash flows, and build and maintain customer relations.
According to the Postal Service, Intelligent Mail allows mailers to track mail as it moves
through the mailstream. Data concerning mail movement is available through every
point in the delivery process. The Postal Service plans to use Full-Service Intelligent
Mail to support the service performance requirements in the PAEA 15. The Postal
Service offers a discount of $.003 (First Class) or $.001 (Standard & Periodicals) for
each mailpiece using Full-Service IMb. In addition, the Postal Service offers free
address correction service and start-the-clock data to Full-Service Intelligent mailers.

Move Update

The Postal Service established Move Update to reduce the estimated $1.9 billion
annual expense associated with undeliverable-as-addressed (UAA) mail. Move Update
was designed to reduce the number of mailpieces in a mailing that requires forwarding,
return, or disposal as waste. Move Update also helps ensure that mail reaches its
intended recipients timely. Move Update specifies that addresses used to obtain all

15
     Public Law 109-435, December 20, 2006.


                                                 10
Effects of Compliance Rules on Mailers                                         MS-AR-11-006



First-Class and Standard Mail® presorted and automation discount rates must be
updated for COA activity within 95 days before the date of mailing by a Postal Service-
approved method. Mailings that do not follow address updating requirements are
subject to single-piece First-Class Mail® prices for each piece in the mailing. Effective
January 4, 2010, the Postal Service established a Move Update assessment charge of
7 cents for First-Class and Standard mailpieces that are not updated for COA orders,
subject to a tolerance of 30 percent. The Postal Service states that use of the term
“assessment charge” is intended to indicate that mail verification by itself does not
establish compliance or non-compliance with Move Update standards. The Postal
Service asserts that the Move Update adjustments will encourage mailers to adopt
Move Update while reasonably taking the impact of price changes into account,
enhancing operational efficiency by reducing UAA mail.

In September 2010 the Postal Service issued a notice in the Federal Register
announcing that it intended to expand Move Update requirements. Under the proposed
rule, to comply with Move Update standards, mailers must refrain from mailing to
MLNA/BCNO. When customers move or allow their Post Office Box service to expire
without providing a new address to redirect their mail, the carrier files either a MLNA or
a BCNO COA order. These types of COA orders are included in the address change
databases the Postal Service maintains.

SuiteLink

The Postal Service Coding Accuracy Support System (CASS) improves the accuracy of
carrier route, five-digit ZIP, ZIP + 4®, and delivery point codes that appear on
mailpieces. CASS certification is required to qualify mail for automation discounts.
CASS is offered to all mailers, service bureaus, and software vendors who want to
evaluate their address-matching software and improve the quality of their ZIP + 4,
Carrier Route Information System, and five-digit coding accuracy. This process is
graded by the Postal Service’s National Customer Support Center and the results are
returned to mailers to provide useful diagnostics for correcting deficiencies. CASS
enables the Postal Service to evaluate the accuracy of address-matching software and
allows mailers the opportunity to test their address-matching software packages and,
after achieving a certain percentage of compliance, be certified by the Postal Service.

CASS also enables mailers to measure and diagnose internally written and
commercially available, address-matching software packages. The effectiveness of
service bureaus' matching software can also be measured. The Postal Service requires
address-matching software vendors to update their software logic once a year to meet
higher quality standards. The Postal Service is requiring SuiteLink beginning in
August 2011 as part of its annual CASS certification. SuiteLink improves business
addressing information by assigning a suite number when available and allows the
Postal Service to achieve increased mail volume sorted in delivery point sequence.




                                            11
Effects of Compliance Rules on Mailers                                       MS-AR-11-006




PVDS

PVDS pertains to discounted mailings claimed at destination entry prices and
transported by a mailer to destination postal facilities. Postal Service employees verify
the mailings at the origin BMEU or Detached Mail Unit (DMU). The mailer is required to
submit a postage statement that summarizes all the postage and volume information for
the mailing. The mailer must also include a PS Form 8125 for each segment of the
mailing that is to be deposited at destination Postal Service facilities. The origin BMEU
or DMU verifies the accuracy of the postage statement, PS Form 8125, and other
supporting documents. After the BMEU or DMU accepts the mail, the Postal Service
returns it to the mailer with a dated and signed PS Form 8125. The mailer then
transports the mail to each drop location and presents the PS Form 8125 as proof that
postage has been paid. In addition, the mailer is required to have a valid drop shipment
appointment with the destination Postal Service facility. Once the shipment arrives at
the facility, Postal Service personnel must verify it to the PS Form 8125 information. If
the information on the form matches the shipment, the mail is released to operations.
The destination Postal Service facility must investigate any discrepancies on the PS
Form 8125 with the origin BMEU or DMU. In FYs 2008 and 2009 revenue from
destination-entered Standard Mail was $15.3 billion and $13 billion, respectively.

MERLIN

MERLIN is a tool the Postal Service uses to assist with the verification and acceptance
of discounted mailings. MERLIN verifies First-Class Mail, Standard Mail, and Periodicals
mailings against DMM standards for sorting, barcodes, and piece counts. MERLIN also
checks address accuracy. These tests impact mail qualification for IMb, Move Update,
and PVDS. MERLIN provides reports on the results of MERLIN tests. Mailers can ask
for a second-level appeal with a Mailpiece Design Analyst or other designated Postal
Service employee. Mailers can further appeal barcode readability failures to the Pricing
and Classification Service Center.

Objective, Scope, and Methodology

The objective of this audit was to evaluate mailers’ concerns with Postal Service
compliance rules. Specifically, we focused on recent and planned changes to
compliance rules related to Intelligent Mail, Move Update, and PVDS. In addition we
reviewed how the Postal Service uses MERLIN to evaluate compliance with Intelligent
Mail and Move Update rules. We performed this audit in response to a request from
Senator Susan M. Collins.

To accomplish our audit objective we interviewed Postal Service officials to gain an
understanding of the Intelligent Mail, Move Update, and PVDS programs and related
roles and responsibilities. We also interviewed mailers and representatives of mailing
organization about their concerns regarding Intelligent Mail, Move Update, and PVDS.
We interviewed MTAC representatives and reviewed MTAC meeting minutes and



                                           12
Effects of Compliance Rules on Mailers                                      MS-AR-11-006



presentations to determine MTAC roles and responsibilities regarding how the Postal
Service shares information with mailers and how mailers advise and make
recommendations to the Postal Service on matters concerning Postal Service programs
and compliance rules. In addition, we surveyed mailers and mail service providers. We
sent our survey to all of the member mailing organizations in MTAC and asked the
mailing organizations to distribute the survey to their members. We received
221 responses from mailers and mail service providers.

We conducted this performance audit from October 2010 through August 2011 in
accordance with generally accepted government auditing standards and included such
tests of internal controls as we considered necessary under the circumstances. Those
standards require that we plan and perform the audit to obtain sufficient, appropriate
evidence to provide a reasonable basis for our findings and conclusions based on our
audit objective. We believe that the evidence obtained provides a reasonable basis for
our findings and conclusions based on our audit objective. We discussed our
observations and conclusions with management on July 11, 2011, and included their
comments where appropriate.

We assessed the reliability of the MTAC RITS data by interviewing MTAC
representatives responsible for the data. We also compared the data in the system to
MTAC meeting minutes and other source documentation. We determined the data were
sufficiently reliable for the purposes of this report.




                                          13
     Effects of Compliance Rules on Mailers                                                         MS-AR-11-006



     Prior Audit Coverage

                                                Final
                          Report               Report           Monetary
  Report Title            Number                Date             Impact               Report Results
Full Service              DA-MA-11-           11/23/2010           None         Surveys of Full Service
Intelligent Mail           001(R)                                               Intelligent Mail participants
Program Customer                                                                disclosed mixed results for
Satisfaction                                                                    program usefulness. The primary
                                                                                reason mailers did not
                                                                                participate in the Full Service
                                                                                Program were high start-up
                                                                                costs and limited program
                                                                                benefits. The report
                                                                                recommended the Postal
                                                                                Service emphasize the benefits
                                                                                of Full Service Intelligent Mail to
                                                                                business mailers; consider
                                                                                offering program incentives to
                                                                                offset program start-up costs;
                                                                                and provide training to business
                                                                                mail entry and PostalOne! Help
                                                                                Desk employees. Management
                                                                                generally agreed with the
                                                                                findings and recommendations.
Move Update             SA-AR-10-001          5/12/2010         $304 million   The Postal Service did not
Program and                                                     Revenue at     establish a sufficient method to
Investigations                                                  Risk (non-     evaluate compliance with Move
                                                                 monetary)     Update standards at acceptance
                                                                               until 2009, 12 years after Move
                                                                               Update began. Compliance
                                                                               standards are not clear and
                                                                               consistent. The tolerance level
                                                                               established at mail acceptance is
                                                                               high at 30 percent. However,
                                                                               once the U.S. Postal Inspection
                                                                               Service establishes
                                                                               noncompliance with Move
                                                                               Update standards, there is zero
                                                                               tolerance. The report made
                                                                               recommendations regarding
                                                                               Move Update enhancement,
                                                                               training, the identified revenue
                                                                               deficiency; and the use of Postal
                                                                               Inspectors in Move Update
                                                                               investigations. Management
                                                                               partially agreed with the first
                                                                               three recommendations and
                                                                               disagreed with the last two. They
                                                                               remain open pending resolution.
                                                                               Management also disagreed with
                                                                               the $304 million non-monetary
                                                                               benefit.



                                                           14
     Effects of Compliance Rules on Mailers                                               MS-AR-11-006



Plant Verified Drop     MS-AR-10-001          2/9/2010         None   Controls were not adequate to
Shipment Controls                                                     prevent mailers from adding mail
                                                                      enroute to the destination Postal
                                                                      Service facility and to ensure the
                                                                      Postal Service receives all
                                                                      revenue due from PVDS.
                                                                      The report recommended the
                                                                      Postal Service weigh verify all
                                                                      drop shipments, provide scales
                                                                      in PVDS areas, train employees
                                                                      and supervisors responsible for
                                                                      verifying PVDS at destination
                                                                      facilities, and provide an
                                                                      electronic reporting solution for
                                                                      comparing PS Forms 8125
                                                                      information at origin and
                                                                      destination. We resolved all but
                                                                      one recommendation through
                                                                      the resolution process. The
                                                                      remaining recommendation
                                                                      remains open pending
                                                                      December 2012 completion.
Intelligent Mail         IS-AR-09-006         3/31 2009        None   The Postal Service was unaware
Barcode Project                                                       of the significant complexities
Planning and                                                          and extensive requirements
Application                                                           needed for the IMb Full Service-
Development Life                                                      Seamless Acceptance Service
Cycle                                                                 Performance (SASP) Release 1.
                                                                      As a result, delays occurred in
                                                                      the design and build and test
                                                                      schedules have been
                                                                      compressed. The report
                                                                      recommended the Postal
                                                                      Service establish an incremental
                                                                      approach for approval funding of
                                                                      future project releases; appoint
                                                                      an information system security
                                                                      representative; and ensure the
                                                                      certification and accreditation
                                                                      process is complete before
                                                                      deploying the IMb FullService-
                                                                      SASP Release 1 application.
                                                                      Management agreed with the
                                                                      first two recommendations and
                                                                      partially agreed with the third.




                                                          15
      Effects of Compliance Rules on Mailers                                               MS-AR-11-006



Intelligent Mail/        MS-AR-09-006          3/31/ 2009        None    Overall, controls were not
Seamless                                                                 adequate to ensure the Postal
Acceptance Project                                                       Service managed the IMb/SASP
Management                                                               project effectively. The report
                                                                         recommended the Postal
                                                                         Service quantify strategic
                                                                         benefits of the Intelligent Mail
                                                                         program to mailers, prepare an
                                                                         integrated project budget,
                                                                         develop potential cost saving
                                                                         estimates, incorporate workhour
                                                                         estimates into work plans for
                                                                         future project releases, and
                                                                         develop risk management and
                                                                         procurement plans. Management
                                                                         agreed or partially agreed with
                                                                         all of the recommendations.
Status of Intelligent      DA-AR-08-           5/28/2008         None   The Postal Service has
Mail Enabling               005(R)                                      successfully upgraded key mail
Infrastructure                                                          processing equipment and 300
                                                                        Postal Service facilities with
                                                                        additional network capacity.
                                                                        However, clarification of
                                                                        requirements is needed to
                                                                        ensure material handling
                                                                        systems fully support future
                                                                        Intelligent Mail programs. The
                                                                        report recommended the Postal
                                                                        Service clarify the 24-digit
                                                                        barcode requirement and ensure
                                                                        contingency plans for the
                                                                        Integrated Data System/National
                                                                        Directory Support System sever
                                                                        consolidation. Management
                                                                        agreed with both
                                                                        recommendations.




                                                            16
Effects of Compliance Rules on Mailers                                                               MS-AR-11-006




                                          Appendix B: Other Impacts


                                                    Other Impacts

                             Finding                       Impact Category
                        Collaboration             Goodwill Branding16
                        with Mailers




16
     An actual or potential event or problem that could harm the reputation of the Postal Service.


                                                             17
Effects of Compliance Rules on Mailers                         MS-AR-11-006



                           Appendix C: Management’s Comments




                                          18
Effects of Compliance Rules on Mailers        MS-AR-11-006




                                         19
Effects of Compliance Rules on Mailers        MS-AR-11-006




                                         20
